           U.S. Department of
                                                  Memorandum
           Transportation
           Office of the Secretary
           of Transportation
           Office of Inspector General


Subject:   INFORMATION: Audit Announcement – Review of                  Date:    November 18, 2009
           FAA’s Efforts To Improve Its System for Tracking
           Controller Training
           Federal Aviation Administration
           Project No. 10A3003A000

  From:    Lou E. Dixon                                              Reply to    JA-10
                                                                     Attn. of:
           Assistant Inspector General
            for Aviation and Special Program Audits

    To:    Assistant Administrator for Financial Services
            and Chief Financial Officer

           On June 8, 2009, we issued our audit report to the Federal Aviation Administration
           (FAA), “Training Failures Among Newly Hired Air Traffic Controllers.” Overall, we
           found that FAA’s system for tracking training failures was ineffective and that the
           data in FAA’s national tracking system were incomplete, inaccurate, or understated.
           We made several recommendations to focus FAA’s efforts on developing procedures
           to obtain accurate data on training failures so it can effectively monitor and improve
           its controller training program. FAA agreed with our recommendations and
           established acceptable timeframes for implementation.

           The House Appropriations Committee Report directed us to update the both House
           and Senate Appropriations Committees by March 15, 2010, on FAA’s progress.
           Accordingly, we plan to begin an audit later this month; our audit objective is to
           evaluate FAA’s actions taken to improve its system for tracking the training progress
           of newly hired controllers.

           We will contact your audit liaison to schedule an entrance conference. If you have
           any questions or need additional information, please contact Dan Raville, Program
           Director, at (202) 366-1405 or Bob Romich, Project Manager, at (202) 366-6478.

                                                    #
           cc:        FAA Deputy Administrator
                      Anthony Williams, ABU-100
                      Martin Gertel, M-1
